                                  Office of Inspector General
                                                             March 2013

Business Loans                                Internal Revenue Service - Criminal In-        their loan brokerage company to
                                              vestigations (IRS-CI), the Englewood           apply for business loans through the
                                              New Jersey Police Department, and the          SBA’s Section 7(a) program. The
Virginia Man Pleads Guilty                                                                   investigation revealed that the main
                                              Bergen County Prosecutor’s Office.
On March 6, 2013, the owner of a Virgin-                                                     defendants and others submitted
ia business pled guilty to one count of                                                      SBA loan applications and sup-
conspiracy to defraud the United States;      Additional Charges in Loan Scheme              porting documentation to loan origi-
one count of conspiracy to commit mon-                                                       nators and underwriters on behalf
ey laundering; and one count of structur-     On March 12, 2013, a multiple-count            of their clients that contained fraud-
ing currency transactions following an        second superseding indictment was              ulent personal financial statements
April 2012 indictment. The indictment         filed in Maryland charging an SBA loan         and/or monthly bank state-
contained forfeiture allegations, which       brokerage company and several other            ments . The fraudulent documenta-
notified the defendant that the United        individuals identified in the investiga-       tion overstated the net worth and
States sought a $17.7 million money           tion, in connection with a scheme to           equity injection amounts of the bor-
judgment against him. To satisfy this         fraudulently obtain business loans. The        rowers to falsely enhance their cre-
judgment, he will forfeit a number of         fraudulently obtained loans, which             ditworthiness. This is a joint investi-
assets including bank accounts and real       were guaranteed by the SBA, resulted           gation with the FBI and the United
property. The investigation revealed          in losses of over $100 million.                States Postal Inspection Service.
that he had engaged in a multi-million
                                                 The loan brokerage company and
dollar treasury check scheme involving
                                                  several other defendants were          Disaster Loans
bogus treasury checks and tax returns.
                                                  each charged with conspiracy to
The man also misrepresented his citizen-
                                                  commit bank fraud, bank fraud,
ship status on SBA-guaranteed 504 loan                                                   Arkansas Man Enters into $200,000 Civil
                                                  money laundering, aiding and
documents. This is a joint investigation                                                 Settlement
                                                  abetting, and criminal forfeiture.
with the Federal Bureau of Investigation
(FBI).                                           Two new defendants, working as         On March 8, 2013, an Arkansas man
                                                  title agents and/or title attorneys,   entered into a $200,000 civil settlement
                                                  one located in Maryland and the        with the U.S. government. The settle-
NJ Man Pleads Guilty to Conspiracy                                                       ment resolves issues relating to an
                                                  other in Virginia, were each
On March 6, 2013, a New Jersey man                charged with conspiracy to commit      $180,400 SBA disaster loan the man ob-
pled guilty to a Criminal Information             bank fraud, bank fraud, money          tained for property damage caused by
charging him with one count of conspira-          laundering, aiding and abetting,       the 2008 Arkansas flooding. The investi-
cy to commit bank fraud. The investiga-           and criminal forfeiture.               gation determined that he made false
tion revealed that members of a criminal                                                 claims to the SBA by stating that the
                                                 On March 19, 2013, the main co-        damages were to his Arkansas property
organization were obtaining credit cards
                                                  defendant pled guilty to conspiracy    when his primary residence was Illinois
and loans from various lending institu-
                                                  to commit bank fraud; while the        at the time of the disaster. The settle-
tions using false identities, documents,
                                                  remaining co-defendant is an inter-    ment stipulated that the SBA would re-
and business names. Many of the loans
                                                  national fugitive. The two main        ceive $167,680.26 for the loan balance
were SBA-guaranteed, and the majority
                                                  defendants owned a loan broker-        and the US Attorney’s Office would re-
are in default. The man, using fictitious
                                                  age company specializing in secur-     ceive $32,319.74 in civil penalties.
business names, obtained three SBA-
                                                  ing loans for individuals interested
guaranteed loans totaling $130,000, as
                                                  in purchasing or refinancing small
well as a $25,000 non-SBA loan. Each
                                                  businesses in the Mid-Atlantic ar-
loan was from a different lending institu-
                                                  ea. They encouraged prospective
tion and all the loans have been charged-
                                                  borrowers to use the services of
off. This is a joint investigation with the
                                                                                                                          Page 2

                            Retired Judge Pleads Guilty      The man was approved for a         Continued Actions in
                            to Theft of Public Money         $998,500 disaster loan for         $31 Million 8(a) Scheme
                                                             Hurricane Humberto and an
                            On March 13, 2013, a retired
                                                             $885,600 disaster loan for         Five individuals were charged
                            Texas judge pled guilty to a
                                                             Hurricane Ike, which were          by criminal information and
                            superseding Information
                                                             fully disbursed for a total loan   pled guilty in connection with
                            charging him with one count
                                                             amount of $1,884,100. The          fraudulently obtaining over
                            of theft of public money. The
                                                             indictment alleged that he         $31 million dollars in 8(a) and
                            investigation disclosed the
                                                             submitted inflated invoices        small business set-aside con-
                            retired judge provided false
                                                             for repair costs to the SBA in     tracts. The investigation dis-
                            statements in order to obtain
                                                             order to receive additional        closed a scheme in which the
                            a Hurricane Ike SBA disaster
                                                             loan disbursements. This is a      principals of two Virginia
                            loan. Specifically, he made
                                                             joint investigation with the       firms falsified their eligibility
                            false statements about the
                                                             FBI.                               for the 8(a) program. This is a
                            location of his primary resi-
                            dence, the address for his                                          joint investigation with Na-
                            homestead exemption, and                                            tional Aeronautics and Space
                                                             Government
                            the payment of the required                                         Administration – OIG, the
                            personal equity injection. At    Contracting                        Defense Criminal Investiga-
                            the time of Hurricane Ike, his                                      tive Service, and the DHS –
                            primary residence was in         TX Man Indicted on Wire            OIG. The five individuals
                            Conroe, Texas. However, in       Fraud and Aggravated               were charged as follows:
                            applications submitted to the    Identity theft                        On March 13, 2013, the
                            SBA and the Federal Emer-
                                                                                                    former owner of one of
                            gency Management Agency          On March 6, 2013, a Texas              the Virginia firms pled
                            (FEMA), he claimed it was in     businessman was indicted on            guilty to one count of
                            Crystal Beach, Texas. The        six counts of wire fraud and
  Five individuals pled                                                                             major fraud against the
                            retired judge obtained a         two counts of aggravated               Government and one
guilty in connection with   $125,000 SBA loan to recon-      identity theft. This case was          count of conspiracy to
                            struct his Crystal Beach prop-   predicated on a referral from
 fraudulently obtaining                                                                             commit bribery. He also
                            erty and approximately           the Government Accountabil-            agreed to forfeit $6.3
over $31 million dollars    $10,000 in FEMA disaster         ity Office (GAO), which al-            million in criminal pro-
                            assistance for emergency         leged that man’s firm was
   in 8(a) and small                                                                                ceeds. The man had also
                            housing needs. Prior to his      falsifying documents to es-            paid a DHS employee
   business set-aside       guilty plea, the retired judge   tablish its status as a Service-       $50,000 to help his firm
                            paid back the remaining          Disabled, Veteran-Owned,
       contracts                                                                                    obtain DHS contracts.
                            $100,000 SBA loan balance.       Small Business (SDVOSB).
                            This is a joint investigation    Specifically, the referral al-        On March 13, 2013, the
                            with the DHS OIG.                leged that owner falsified the         former president of the
                                                             credentials of his company’s           second firm pled guilty to
                            Former Bowling Center Own-
                                                             engineers, as well as his com-         one count of major fraud
                            er Indicted in $1.88 Million
                                                             pany’s office locations, num-          against the Government.
                            Scheme
                                                             ber of employees, and past            On March 14, 2013, the
                            On March 27, 2013, the for-      projects. The owner was                former vice president of
                            mer owner of a Texas bowl-       awarded a Department of                the second firm pled
                            ing center was indicted on       Veterans Affairs (VA) SDVOSB           guilty to one count of
                            one count of conspiracy to       set-aside contract and ten             conspiracy to commit
                            commit offenses against and      task orders under that con-            major fraud against the
                            to defraud the United States,    tract, with a cumulative value         Government.
                            one count of fraud in connec-    of $1,587,952. This is a joint
                            tion with a major disaster,      investigation with the VA             On March 18, 2013, the
                            and six counts of false state-   OIG.                                   former chief financial
                            ments.                                                                  officer of the second firm
                                                                                                                         Page 3

    pled guilty to one count         cial, conspiracy to com-        The representative of a
    of conspiracy to commit          mit bank fraud, and aid-         second firm was charged
    major fraud against the          ing and abetting and             with conspiracy to com-
    Government.                      causing an act to be             mit wire fraud and pled
                                     done. In addition to the         guilty on March 29, 2013.
   On March 15, 2013, the
                                     bribery scheme, the man
    former owner of the sec-
                                     was charged for defraud-
    ond firm pled guilty to
                                     ing lenders by obtaining
    one count of major fraud
                                     mortgage loans on prop-
    against the Government,                                                                           “four charged in
                                     erties using false loan
    and agreed to forfeit                                                                         connection with a major
                                     applications, forged doc-
    $1.2 million in criminal                                                                       scheme in which bribe
                                     uments and fraudulent
    proceeds.                                                                                     payments were made to
                                     settlements in order to
On March 14, 2013, four indi-        generate large cash pro-                                        U.S. Army Corps of
viduals were charged by crim-        ceeds. He pled guilty on                                       Engineers (USACOE)
inal information in connec-          March 29, 2013.                                                officials in return for
tion with a major scheme in                                                                        preferential treatment
                                    An SBA certified 8(a) pro-                                      on 8(a) contracts”
which bribe payments were
                                     gram participant firm
made to U.S. Army Corps of
                                     was charged with con-
Engineers (USACOE) officials
                                     spiracy and bribery of a
in return for preferential
                                     public official.
treatment on 8(a) contracts.
The charges were as follows:        The president of the 8(a)
                                     program participant firm
   The representative of a
                                     was charged with con-
    firm was charged with
                                     spiracy to commit brib-
    bribery of a public offi-
                                     ery of a public official.


Agency Management
Evaluation of SBA’s Progress in Reducing Improper Payments in FY 2012
On March 14, 2013, the OIG issued Audit Report 13-13, Evaluation of SBA’s Progress in Reducing
Improper Payments in FY 2012. The objective of this audit was to determine the adequacy of
SBA’s compliance with IPERA and OMB’s implementing guidance. To achieve the audit objective,
the OIG determined whether the SBA addressed required provisions, and performed limited
testing of compliance with these provisions. The OIG also reviewed the completeness of improp-
er payments disclosures in the SBA's Agency Financial Report for fiscal year (FY) 2012, and as-
sessed the Agency’s efforts to prevent and reduce improper payments.
The OIG found that the SBA was generally compliant in meeting the minimum requirements, in
accordance with OMB guidance. Further, the OIG found that the SBA’s efforts to prevent and
reduce improper payments have resulted in significant progress since the FY 2011 assessment.
Specifically, the Disaster Assistance Loan Program made progress through the deployment of
improved controls and process improvements, which reduced their improper payments rate
from 28.4 percent in FY 2011 to 17.9 percent in FY 2012. In addition, the 7(a) and 504 programs
improved their testing procedures for loan guaranty approvals. The revised procedures were
more robust and led to the identification of more improper payments during the testing process.
As a result, the improper payments estimate increased from $0 in FY 2011 to $233 million and
$105 million, respectively, in FY 2012. Notwithstanding these accomplishments, further improve-
                                                                                                                   Page 4


                        ment is still needed in the effectiveness and development of SBA improper payment controls
                        and processes for all of the programs or activities.
                        The OIG also assessed whether the SBA complied with IPERA reporting requirements, as speci-
                        fied in OMB guidance. This evaluation found that the SBA generally met all the IPERA reporting
                        requirements. However, the Disaster Assistance Loan program was not compliant because their
                        improper payment rate exceeded the 10 percent threshold. In addition, three of the five pro-
                        grams or activities did not achieve their annual reduction targets. The OIG was unable to evalu-
                        ate the accuracy and completeness of the improper payments rate reported for the Acquisition
“the SBA’s efforts to   Program.
prevent and reduce
                                                                       ***
improper payments
  have resulted in      The SBA’s Loan Management and Accounting System-
significant progress    Incremental Improvement Projects
 since the FY 2011
    assessment”         On March 19, 2013, the OIG issued Audit Briefing Report 13-11: The SBA’s Loan Management
                        and Accounting System- Incremental Improvement Projects. This report presents the results of
                        the OIG's review of the Small Business Administration’s efforts to modernize its loan manage-
                        ment system and migrate off the mainframe environment. Since 2004, a significant manage-
                        ment challenge facing the SBA is the modernization of the loan accounting process. Specifically,
                        this report addresses issues identified in the planning, management, and oversight of SBA’s on-
                        going migration efforts.
                        The OIG found that the SBA successfully migrated the data-entry of over 44% of its loan and
                        lending transactions from mainframe data entry to web-based data entry. This was the first step
                        in fully migrating off SBA’s legacy mainframe and utilizing updated technology. During the re-
                        view, the OIG also found that the:
                           SBA did not have an incremental improvement project to migrate its newly created COBOL
                            code into production.
                           Root Cause Analysis Project was altered from its initially approved project.

                           User Interface Migration Project screens were not security tested and validated.

                           Quality Assurance and Independent Verification and Validations programs did not exist.

                        The OIG identified five findings that put the development of this project at risk for not meeting
                        the needs and expectations of the SBA, the Office of Management and Budget (OMB), and Con-
                        gress. The OIG also issued six recommendations.
                                                                       ***
                        The SBA Used Inappropriate Contracting Practices to Reconfigure Space for the Office
                        of International Trade

                        On March 26, 2013, the OIG issued Audit Report 13-12: The SBA Used Inappropriate Con-
                        tracting Practices to Reconfigure Space for the Office of International Trade. This is the second
                        of two audit reports related to the reconfiguration of OIT’s office space. The OIG found that the
                        Contracting Officer’s Representative (COR) inappropriately authorized the use of an existing
                        contract to complete the OIT reconfiguration, and in doing so exceeded his authority. Addition-
                        ally, the COR failed to develop a Statement of Work to ensure the requested work was complet-
                        ed in accordance with SBA’s requirements. Further, the COR and Contracting Officer (CO) did
                                                                                                                                 Page 5

                                     not review and approve the OIT invoice for the reconfiguration work in accordance with federal
Office of Inspector General          and SBA’s policy.
    Peggy E. Gustafson
                                     The OIG recommended that the SBA (1) implement procedures to ensure that COs and CORs
     Inspector General               properly review invoices for compliance with the terms of the contract and the scope of work;
              ***                    (2) direct the CO, for purchase order SBA-HQ-11-M-0018, to review all invoices and make a de-
If you are aware of suspected        termination of whether all work that was billed to the SBA was actually performed. If not, the CO
 waste, fraud, or abuse in any       should take appropriate action; (3) implement procedures to ensure the COs and CORs maintain
SBA program, please report it        supporting documentation of contract actions in the contract files as required by the Federal
                                     Acquisition Regulations; and (4) perform a review of the purchase order discussed in this report,
online at http://www.sba.gov/
                                     focusing on the authority of the COR. If appropriate, initiate appropriate administrative action
      office-of-inspector-
                                     against the COR assigned to the purchase order.
         general/2662
                                                                                    ***
Or call the OIG Hotline toll-free,   The SBA’s 417 Unauthorized Commitments Impacted Mission-Related Services and
        at (800) 767-0385            Increased Costs
                                     On March 28, 2013, the OIG issued Audit Report 13-14: The SBA’s 417 Unauthorized Commit-
 We welcome your comments            ments Impacted Mission-Related Services and Increased Costs. The audit objective was to deter-
concerning this update or other      mine the extent and reasons unauthorized commitments occurred at the SBA. The OIG deter-
  OIG publications. To obtain        mined that the SBA received invoices associated with 417 unauthorized commitments, valuing
  copies of these documents          more than $1.4 million between November 2010 and May 2012. The OIG found that the total
     please contact us at:           number of unauthorized commitments at the SBA in the last two fiscal years greatly exceeded
                                     the total number of unauthorized commitments at six other federal agencies of a similar size.
                                     Further, the OIG believes that the 417 unauthorized commitments directly affected the ability of
           SBA OIG
                                     the Agency to procure goods and services for its daily operations legally and efficiently, and lim-
     409 Third Street SW,            ited its ability to provide needed support to small businesses.
          7th Floor
    Washington, DC 20416             The SBA continues to improve its acquisition process and preventing unauthorized commit-
                                     ments. The OIG recommended seven actions to improve contract management at the SBA and
     E-mail: oig@sba.gov
                                     significantly decrease the total number of future unauthorized commitments .
  Telephone: (202) 205-6586
     FAX (202) 205-7382                                                             ***
                                     Briefing Report for the
Many OIG reports can be found        FY 2012 Federal Information Security Management Act Review.
     on the OIG’s website
http://www.sba.gov/office-of-        On March 29, 2013, the OIG issued Audit Briefing Report 13-15: Briefing Report for the FY 2012
       inspector-general             Federal Information Security Management Act Review. This report presents the results of the
                                     OIG’s Federal Information Security Management Act (FISMA) review of the SBA. Under FISMA,
                                     agencies report their compliance with information security requirements. The OIG reports on
                                     the effectiveness of the agency’s information security program in accordance with OMB criteria.
                                     For Fiscal Year (FY) 2012, the OIG was required to report on the following 11 areas: 1) continu-
                                     ous monitoring management; 2) configuration management; 3) identity and access manage-
                                     ment; 4) incident and response reporting; 5) risk management; 6) security training; 7) plan of
                                     actions and milestones; 8) remote access management; 9) contingency planning; 10) contractor
                                     systems, and 11) security capital planning.
     We’re on the Web!
                                     The OIG found that the SBA continues to demonstrate improvement in its IT Security Program.
     http://www.sba.gov/ig           Specifically, the SBA showed improvement in the areas of Incident Response and Risk Manage-
                                     ment, continues to meet requirements in the area of Security Capital Planning, and needs to
                                     make significant improvement in the area of Configuration Management. The OIG also recom-
                                     mended the SBA update its Telework SOP, which contained outdated technical procedures.
